      U.S. Department of the Interior
      Office of Inspector General

                                    Audit Report
                   Management of Federal Grants
  Department of Mental Health and Substance Abuse
                             Government of Guam




August 2002                      Report No. 2002-I-0036
                                                                                  N-IN-GUA-002-00-M

                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL

                                         Pacific Field Office
                                      415 Chalan San Antonio
                                      Baltej Pavilion - Suite 306
                                       Tamuning, Guam 96911

                                                                                   August 19, 2002

Honorable Carl T.C. Gutierrez
Governor of Guam
Office of the Governor
P.O. Box 2950
Hagatna, Guam 96932

Subject: Audit Report "Management of Federal Grants, Department of Mental Health and
         Substance Abuse, Government of Guam" (Report No. 2002-I-0036)

Dear Governor Gutierrez:

      This report presents the results of our audit of the management of Federal grants by the
Department of Mental Health and Substance Abuse of the Government of Guam.

        Section 5(a) of the Inspector General Act (5 U.S.C. app.3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress. We have also provided a copy of this
report to the U.S. Department of Health and Human Services.

        Please provide a response to this report by September 13, 2002. The response should provide
the information requested in Appendix 4 and should be addressed to our Pacific Field Office,
415 Chalan San Antonio, Baltej Pavilion - Suite 306, Tamuning, Guam 96913.

                                              Sincerely,


                                              Arnold E. van Beverhoudt, Jr.
                                              Audit Manager for Insular Areas

cc:   Ms. Aurora F. Cabanero, Acting Director,
         Department of Mental Health and Substance Abuse
EXECUTIVE SUMMARY
                   The Department of Mental Health and Substance Abuse, which
BACKGROUND         is part of the Executive Branch of the Government of Guam, is
                   responsible for providing mental health, alcohol, and drug
                   prevention and treatment programs.

                   The Department receives an annual budget of approximately
                   $6 million from the Guam Legislature and receives
                   approximately $1 million annually from three U.S. Department
                   of Health and Human Services (DHHS) block grants: Projects for
                   Assistance in Transition from Homelessness (PATH), Substance
                   Abuse Prevention and Treatment (SAPT), and Community
                   Mental Health Services (CMHS). The Department also received
                   a DHHS discretionary grant: Mental Health Statistics
                   Improvement Program (MHSIP) Stage I Implementation (see
                   Appendix 1).


                   The objective of the audit was to determine whether the
OBJECTIVE          Department administered its Federal grants in accordance with
                   Federal and local laws and regulations relating to (1) the
                   procurement of supplies and services and the administration of
                   contracts, (2) the identification and allocation of costs for
                   personnel and contract employees, and (3) the billing and control
                   of grant reimbursements.


                   Although the Department of Mental Health and Substance Abuse
RESULTS IN BRIEF   generally followed procurement requirements, it did not
                   adequately account for costs billed or comply with certain grant
                   requirements. Specifically, we found that the Department:

                   ‘    Charged the SAPT block grant for $138,190 of unallowable
                        inpatient psychiatric services.

                   ‘    Did not account for SAPT block grant expenditures on a
                        program basis, as required by grant regulations, resulting in
                        unsupported costs of $1.5 million.

                   ‘    Expended $300,260 in MHSIP discretionary grant funds
                        without achieving the grant objective of developing a
                        computerized patient information system and improperly
                        used $60,000 of SAPT block grant funds on a second
                        attempt to develop a patient information system.


                                 1
                    We made six recommendations to the Governor of Guam to
RECOMMENDATIONS     address the deficiencies disclosed by our audit.


                    The Department of Mental Health and Substance Abuse
AUDITEE COMMENTS    concurred with all six recommendations and provided an action
AND OFFICE OF       plan to implement them, including identification of the officials
INSPECTOR GENERAL   responsible for implementing the action plan and the dates by
EVALUATION          which the tasks are to be completed. Accordingly, we consider
                    five recommendations to be resolved but not implemented and
                    one recommendation to be implemented. Because the audit
                    related to Federal funds granted by the U.S. Department of Health
                    and Human Services, a copy of this report will be provided to that
                    agency.




                                  2
CONTENTS
                   ................................................. 1
EXECUTIVE
SUMMARY


                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
RESULTS OF AUDIT   Inpatient Psychiatric Services . . . . . . . . . . . . . . . . . . . . . . . . 7
                   Level of Effort Requirements . . . . . . . . . . . . . . . . . . . . . . . . 8
                   Computerized Patient Information System . . . . . . . . . . . . . . 10



                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
RECOMMENDATIONS


                   1. Summary of Grant Awards, Expenditures, and
APPENDICES              Cost Exceptions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                   2. Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . 18
                   3. Status of Recommendations . . . . . . . . . . . . . . . . . . . . . . . 25




                                         3
[ Page intentionally left blank ]




               4
INTRODUCTION
                The Department of Mental Health and Substance Abuse, which
BACKGROUND      is part of the Executive Branch of the Government of Guam, is
                responsible for providing mental health, alcohol, and drug abuse
                prevention and treatment programs. Such programs include
                24-hour crisis intervention services, group and family counseling,
                partial hospitalization and aftercare for the mentally ill, outpatient
                services for adults and children, and inpatient and community-
                based outpatient alcohol and drug treatment programs.

                The Department had 142 employees and received annual
                appropriations of approximately $6 million from the Guam
                Legislature plus approximately $1 million annually from three
                U.S. Department of Health and Human Services (DHHS) block
                grants (see Appendix 2). The three block grants were: Projects
                for Assistance in Transition from Homelessness (PATH),
                Substance Abuse Prevention and Treatment (SAPT), and
                Community Mental Health Services (CMHS).

                During the period of September 30, 1993 to September 15, 1995,
                the Department also received $341,064 under the DHHS
                discretionary grant Mental Health Statistics Improvement
                Program (MHSIP) Stage I Implementation. This grant was
                available to state and territorial mental health agencies to develop
                patient information systems to provide uniform patient/client
                demographic and treatment data and program data. There were
                three types of MHSIP grants: Stage I grants covered the
                implementation of an automated patient information system,
                Stage II grants covered initial operation of the information
                system, and Stage III or Decision Application grants were to
                demonstrate that the reports from the information system could
                be used to evaluate program performance.


                The objective and scope of the audit was to determine whether
OBJECTIVE AND   the Department of Mental Health administered its Federal grants
SCOPE           in accordance with Federal and local laws and regulations
                relating to (1) the procurement of supplies and services and the
                administration of contracts, (2) the identification and allocation
                of costs for personnel and contract employees, and (3) the billing
                and control of grant reimbursements. The scope of the audit
                included expenditures charged against the block grants awarded
                during fiscal years 1998, 1999, and 2000. We also included in
                our review a discretionary grant initially awarded in fiscal year


                               5
              1994 for an automated patient information system. The expanded
              scope of audit was necessary because contractual services
              charged against the SAPT block grant duplicated work performed
              under the MHSIP discretionary grant.

              Our review was made, as applicable, in accordance with the
              "Government Auditing Standards," issued by the Comptroller
              General of the United States. Accordingly, we included such
              tests of records and other auditing procedures that were
              considered necessary under the circumstances.

              As part of the audit, we evaluated the system of internal controls
              related to the awarding and administration of Federal grants by
              the Guam State Clearinghouse and the Department of Mental
              Health. Based on our review, we identified internal control
              weaknesses which are discussed in the Results of Audit section
              of this report. Our recommendations, if implemented, should
              improve the internal controls in these areas.


              During the past 5 years, neither the General Accounting Office or
PRIOR AUDIT   the Office of Inspector General has issued any audit reports on
COVERAGE      Federal grants awarded to the Department of Mental Health and
              Substance Abuse, Government of Guam. In addition, none of
              the single audit reports issued during the same 5-year period
              included a review of Federal grants administered by the
              Department of Mental Health and Substance Abuse.

              However, in August 1997, the Office of the Public Auditor,
              Government of Guam issued a report on a "Management Audit of
              the Department of Mental Health and Substance Abuse." The
              report concluded, in part, that the Department had lost revenues
              of about $4.2 million during fiscal years 1994 through 1997 as a
              result of not charging service fees to patients. The charging of
              fees was identified in the initial needs analysis for a computerized
              patient information system, which is discussed in this report.




                             6
RESULTS OF AUDIT
                          The Department of Mental Health and Substance Abuse charged
OVERVIEW                  the SAPT block grant for unallowable inpatient psychiatric
                          services; did not account for SAPT block grant expenditures on
                          a program basis, as required by grant regulations; and expended
                          $300,260 in MHSIP discretionary grant funds without
                          successfully developing and implementing a computerized patient
                          information system and improperly used $60,000 of SAPT block
                          grant funds in another attempt to develop a patient information
                          system. These conditions existed because the Department did not
                          distinguish between contractual billings for inpatient and
                          outpatient psychiatric services prior to approving payments, did
                          not have procedures to account for grant expenditures on a
                          program basis, and did not follow standard information system
                          project management practices. As a result, we identified
                          $1.7 million of questioned costs and $300,260 of cost that could
                          have been put to better use (see Appendix 1).


                          Contrary to grant regulations, the Department charged inpatient
INPATIENT                 psychiatric services to the Substance Abuse Prevention and
PSYCHIATRIC               Treatment (SAPT) block grants for fiscal years 1998 and 1999.
SERVICES                  This occurred because the Department could not distinguish
                          between inpatient and outpatient psychiatric care services billed
                          under contracts with psychiatrists. As a result, we determined
                          that billings for inpatient psychiatric services totaling $138,190
                          were paid during the 2-year period.


Contractor Time Sheets    Grant regulations contained in the Code of Federal Regulations
Were Not Used to          (45 CFR § 96.135(a)(1)) governing the use of SAPT grant funds
Determine the Amount of   prohibit the expenditure of grant funds for psychiatric services
Allowable Charges         provided on an inpatient basis, except in certain documented
                          circumstances where the patient could not be safely treated in a
                          community-based, non-hospital, residential treatment program
                          and the treatment was expected to improve the patient’s
                          condition. Psychiatric services at the Department were provided
                          on a contractual basis by individual psychiatrists who submitted
                          monthly billings for their services. Our review of the contracts
                          and the monthly billings disclosed that for fiscal years 1998 and
                          1999, the SAPT grant funds were used to pay the entire billed
                          amounts although time sheets submitted by the contractors clearly
                          identified the charges for inpatient treatment.



                                        7
                           The Administrative Officer for Financial Management, who
                           certified the availability of funds for expenditures at the
                           Department of Mental Health, stated that the time sheets and
                           billing invoices from the psychiatrists were forwarded to the
                           Department of Administration for payment and were not used to
                           determine the allowable charges for the grant. In addition, the
                           Administrative Officer stated that the entire cost of the doctors’
                           contracts were charged to the SAPT grants for fiscal years 1998
                           and 1999 because there were insufficient local funds to pay for
                           any inpatient psychiatric services. She stated that for fiscal year
                           2000, psychiatric services were charged to local Government of
                           Guam appropriations.

                           Based on grant expenditure records, we determined that $138,190
                           of inpatient psychiatric services was improperly charged against
                           the SAPT grants for fiscal years 1998 ($103,200) and 1999
                           ($34,990).


                           The Department did not account for SAPT grant expenditures on
LEVEL OF EFFORT            a program basis. Consequently, it could not show compliance
REQUIREMENTS               with grant regulations requiring a minimum level of effort for
                           three prevention and treatment programs under the SAPT block
                           grant. As a result, we estimated that the Department had incurred
                           $1.5 million of unsupported grant expenditures.


Federal Regulations        Although each state and territory had discretion in developing its
Required Level of Effort   prevention and treatment programs, there were restrictions on
Reporting                  how much of the SAPT grant could be spent on certain programs.
                           Grant regulations contained in the Code of Federal Regulations
                           (45 CFR § 96.124) required states and territories to spend not less
                           than 35 percent for alcohol abuse prevention and treatment
                           programs, 35 percent for other drug abuse prevention and
                           treatment programs, and 20 percent for primary prevention
                           programs. The remaining 10 percent was for administration of
                           the grant and discretionary programs. In this context, the SAPT
                           grant application process required the Department to prepare
                           reports showing, in part, how much it planned to spend on the
                           required categories of programs (Form 11) and the actual
                           expenditures and obligations incurred (Form 4) against the SAPT
                           grant awarded 2 years previously for actual expenditures and
                           1 year previously for actual outstanding encumbrances. For
                           example, the fiscal year 2001 SAPT grant application (submitted
                           in fiscal year 2000) required the Department to report the actual
                           expenditures incurred, by program, for the fiscal year 1998 grant
                           and outstanding encumbrances for the fiscal year 1999 grant.

                                          8
                              From these two reports, compliance with the level of effort
                              requirements could be determined.


Accounting Records Did        Despite these requirements, the Department only accounted for
Not Support Level of Effort   grant expenditures by expenditure classifications such as "labor,"
Reporting                     "travel," and "contractual services," and not by program. For
                              required level of effort reports (Form 4), the Department simply
                              multiplied the total expenditure and obligation amounts by the
                              minimum level of effort percentage for each program. However,
                              these amounts did not necessarily represent the actual allocation
                              of expenditures and obligations among the three main program
                              categories. The amounts reported (Form 11) for subsequent year
                              grant budgets were computed using the same process, rather than
                              being based on budgets derived from an analysis of expected
                              level of effort.

                              The administrative officer for financial management, who
                              provided the expenditure and encumbrance data for the SAPT
                              grant applications, stated that she was aware of the required level
                              of effort percentages for the grant, but that it would be difficult to
                              allocate costs on a program basis because the payroll system used
                              by the Government of Guam was not set up to record employee
                              time on a program basis, particularly for counselors who might
                              work on several programs during a pay period. However, the
                              management analyst who oversaw the grant application process
                              stated that the key to complying with the grant requirement was
                              to establish a budget for the grant award on a program basis.
                              Additionally, an internal timesheet could have been implemented
                              to record and account for employees’ time on a program basis.
                              The management analyst added that the fiscal year 2001 CMHS
                              grant award had been budgeted in this way. Although we verified
                              the existence of the budget, internal spreadsheets used to account
                              for grant expenditures had not yet been set up to record
                              expenditures and encumbrances against the budget categories for
                              this grant.


Grant Managers Were Not       Contributing to the noncompliance with level of effort
Required to Acknowledge       requirements was the grant clearinghouse review and approval
Their Familiarity with        process that was required for all Government of Guam Federal
Grant Requirements            grant applications. The review and approval process required that
                              grant applications submitted by the originating department or
                              agency be reviewed by the Bureau of Planning and the Bureau of
                              Budget and Management Resources. Once these reviews were
                              completed, the Governor signed the application as the Chief
                              Executive Officer. For the SAPT grant application, the Governor

                                             9
                           was also required to sign a "Funding Agreements/Certifications"
                           form (OMB No. 0930-0080) that specifically spelled out the
                           compliance requirements of the grant, including the level of effort
                           percentage requirements. The PATH and CMHS grants had
                           similar certification requirements.

                           We noted that although the Governor signed the certification
                           form, the clearinghouse review process did not require the
                           respective department officials who would actually be
                           administering the grants to sign the same certification forms. We
                           believe that requiring the cognizant department or agency
                           officials, such as the director and certifying officer, to
                           acknowledge their awareness and understanding of the grant
                           requirements would formally place responsibility for compliance
                           directly on the shoulders of the responsible officials at the
                           department or agency level.

                           We estimated that the Department’s inability to show compliance
                           with the level of effort requirements resulted in unsupported costs
                           of $1,504,141 for the SAPT grants fiscal years 1998 ($430,236),
                           1999 ($424,251), and 2000 ($649,654).


                           The Department did not successfully develop and implement an
COMPUTERIZED               automated patient information system after spending $300,260 of
PATIENT                    MHSIP discretionary grant funds on the project. In addition, the
INFORMATION                Department had committed $60,000 of SAPT block grant funds
SYSTEM                     to the project in fiscal year 2000 in another poorly-planned
                           attempt to develop a patient information system.            The
                           Department’s inability to develop and implement a patient
                           information system was the result of inadequate management
                           oversight.


Mental Health Statistics   In July 1993, the Department applied for an MHSIP Stage I grant,
Improvement Program        stating that the Department needed a fully functional
Grant of $300,260 Did      computerized patient information system in order to implement
Not Result in a Usable     a fee schedule for services and to provide patient demographic
Information System         and program performance data for short and long-term planning.
                           In addition, the grant application stated that the need for a
                           computerized patient information system had existed since 1983.

                           During the first year of the grant, the Department contracted with
                           a computer specialist in mental health data standards to conduct
                           an assessment of its data needs and provide recommendations for
                           implementation of a computerized patient information system.
                           After a review of available products, a medical records

                                         10
management system patterned after the one used by the State of
Kansas was selected. Unfortunately, the contracted specialist
died before the work could be completed. Subsequently, the
system was abandoned and a committee composed of Department
administrators and supervisors and chaired by the Deputy
Director selected an "off-the-shelf" commercial software package
designed for tracking patient treatment.

Based on our review of available records, we determined that the
Department had preselected this software without (1) identifying
what the Department actually needed and (2) evaluating other
software packages used in the mental health field. On
February 4, 1997, after preselecting but not yet purchasing the
software, the Department retained a computer consultant, at a cost
of $89,200, to perform a systems analysis of the Department’s
needs and to purchase and customize the preselected software for
the Department’s use.

However, the process of selecting the software and then
conducting a needs analysis was opposite of the normal system
development process. The consultant’s systems analysis report
implied this problem by stating, "This analysis differs from most
computer analysis in that [the] software system has already been
pre-chosen and that the analysis was scheduled to be done
without the benefit of a working copy of the software."

Nevertheless, work progressed with the customization process
until the current Department Director, who assumed that position
in November 1997, stated that after a few months at the
Department he realized that the customization of the software
would not work. Subsequently, on February 26, 1998 the
Department entered into a memorandum of understanding with
the University of Guam, with funding of $78,004 being financed
from the MHSIP grant, to have a professor from the University’s
Computer Science Program assess the current status of the
software customization process and identify additional work
needed to complete the patient information system.

The University’s report, received by the Department on March 5,
1999 (or 9 months overdue), confirmed the Director’s doubts
about the viability of the efforts to customize the off-the-shelf
software. The report stated that additional effort should not be
spent customizing the purchased software package because the
work, at that point, was not finished and there were no assurances
from the software vendor that it was willing to support a
customized version of its software. The report further stated that
the Department had three courses of action: (1) find another

              11
                      commercial software package that met the Department’s
                      requirements, (2) find a vendor that could supply a basic patient
                      information system and the personnel to modify it, or (3) create
                      a fully customized system. As a result, the customization project
                      was stopped.

                      The MHSIP grant close-out report dated June 12, 1998
                      summarized the Department’s activities under the grant by
                      stating, in part, that the Department "tried to implement a system
                      without any formal analysis or master plan." Despite this
                      comment and the Director’s initial realization that the software
                      customization project probably would not work, the close-out
                      report concluded that the Department anticipated a fully
                      functioning computerized patient information system by
                      October 1998. When we asked the Director about the closeout
                      report conclusion, in view of his own doubts about the
                      customization project, he stated that he was unsure why this was
                      stated in the final report.


Another Attempt Was   With the MHSIP grant closed, on September 22, 2000, the
Made to Develop a     Department made another attempt to develop a computerized
Patient Information   patient information system by entering into a $60,000
System                memorandum of understanding with the University of Guam
                      covering the 1-year period ending September 30, 2001. We
                      concluded that this second attempt may not be successful because
                      of weaknesses in the agreement with the University and
                      inadequate testing of the program.

Weaknesses in the     Specifically, the memorandum of understanding did not (1)
Memorandum of         specify how the system components would be tested and
Understanding         approved by the Department, (2) identify who would have
                      ownership of the software, and (3) specify which programming
                      language would be used to write the software or what the
                      requirement would be for program documentation, including user
                      manuals. We discussed these weaknesses with the current project
                      manager, who stated that when she took over the project on
                      February 20, 2001, she recognized the deficiencies, but the
                      project was too far along to implement the necessary corrective
                      actions. Furthermore, the project manager expressed reservations
                      about whether the project could be completed with an operational
                      information system in place by the September 30, 2001 deadline.


                      In December 2000, the principal programmer demonstrated the
Inadequate Testing    patient intake portion of the program in a meeting with the
                      Department’s managers and supervisors, and provided individual

                                    12
                          demonstration programs that were subsequently loaded onto
                          personal computers for officials to test and provide constructive
                          feedback. Although the intake portion of the program was
                          demonstrated to managers and supervisors, the actual testing
                          process was incomplete and not adequately monitored to ensure
                          that problems with the program were addressed timely.

                          We contacted four supervisors and one employee in the
                          Department who were directly involved with the patient intake
                          process to determine if they had used the demonstration program
                          and provided feedback to the programmers. Of the five
                          individuals we interviewed, only one had actually used the
                          demonstration program. The other four individuals had the
                          program on their computers but had not tried to use it prior to our
                          interviews. When the intake program was tried by the four
                          individuals during our interviews, the program did not work. In
                          addition, all five individuals were unclear as to whom they would
                          have asked for help with the program. The five individuals were
                          also unclear as to whom they should provide comments on the
                          intake program.

                          In our opinion, adequate testing and monitoring would ensure that
                          the end users would be provided a product that would meet the
                          expectations of the Department.

SAPT Block Grant Funds    Although the need for a computerized patient information system
of $60,000 Were Used to   had been well documented, we question the use of $60,000 of
Fund the Second Attempt   fiscal year 2000 SAPT block grant funds to finance this second
to Develop a Patient      system development attempt. First, the Department had already
Information System        received a separate grant, which if managed properly should have
                          resulted in a functioning system. And second, it is questionable
                          whether the SAPT grant funds should have been used to fund
                          another attempt since grant regulations for the SAPT grant
                          stipulated that no less than 90 percent of grant expenditures be
                          specifically related to substance abuse prevention and treatment
                          programs. In this context, the Department did not specifically
                          receive any approval from DHHS to use SAPT grant funds for a
                          systems development project.

                          Finally, the Guam Public Auditor’s 1997 audit report (see "Prior
                          Audit Coverage") estimated that the Department had lost more
                          than $4 million over a 4-year period by not charging service fees.
                          Since one of the original reasons for developing a computerized
                          patient information system was to facilitate the billing of fees for
                          services provided to patients with medical insurance, the
                          Department should seek local appropriations to bear the cost for
                          developing a computerized patient information system.

                                        13
14
RECOMMENDATIONS
                    We recommend that the Governor of Guam require the Director
TO THE GOVERNOR     of the Department of Mental Health and Substance Abuse to:
OF GUAM
                          1. Develop and implement procedures to review contractor
                    billings for psychiatric services and stop charging the SAPT grant
                    for inpatient psychiatric services unless they meet the specific
                    exceptions contained in the Code of Federal Regulations.

                          2. Develop and implement program-based budgets for each
                    Federal grant in accordance with grant regulations and record
                    grant costs against the budgets based on program categories and
                    level of effort criteria contained in the Code of Federal
                    Regulations.

                         3. Reconstruct SAPT grant expenditures for fiscal years
                    1998 through 2000 on a program basis and submit the results to
                    the U.S. Department of Health and Human Services for review.

                          4. Develop and implement procedures requiring the
                    Director and other cognizant Department officials to
                    acknowledge their awareness of and responsibility for complying
                    with applicable grant regulations for each Federal grant
                    application submitted to the grant clearinghouse for review and
                    approval.

                         5. Seek clarification from the U.S. Department of Health
                    and Human Services as to whether the SAPT grant can be used
                    to develop and implement a computerized patient information
                    system. If the costs are unallowable, request a local appropriation
                    from the Guam Legislature to complete development and
                    implementation of a computerized patient information system.

                          6. Amend the memorandum of understanding between the
                    Department of Mental Health and Substance Abuse and the
                    University of Guam to ensure that there is a clear statement of
                    deliverables under the agreement, including testing and
                    documentation of the patient information system.


                    The April 29, 2002 response (Appendix 2) to the draft report
AUDITEE RESPONSE    from the Department of Mental Health and Substance Abuse
AND OFFICE OF       indicated concurrence to the recommendations and provided a
INSPECTOR GENERAL   corrective action plan that included the titles of the officials
REPLY               responsible and the target dates for implementing the

                                  15
recommendations. Based on the response, we consider
Recommendations No. 1, 3, 4, 5, and 6 to be resolved but
not implemented and Recommendation No. 2 to be implemented
(see Appendix 3).

The response also provided general comments on specific aspects
of the audit findings, as follows:

      - Regarding inpatient psychiatric services, the response
stated that the use of the SAPT grant funds for inpatient
psychiatric services was allowable for inpatient care because it
was the only community-based facility on Guam for drug and
alcohol clients. Our review of the grant regulations governing
inpatient and outpatient psychiatric services showed no waiver
for exclusive providers of such services. If Department officials
now feel that they qualify for an exemption to the regulations,
they should request such an exemption directly from U.S.
Department of Health and Human Services.

       - Regarding level of effort requirements, the response
noted that the Governor had delegated grant assurance
certification to the Director of the Department of Mental Health
and Substance Abuse, who had subsequently delegated specific
compliance tasks to his staff. Based on our review, we found that
there was a defacto delegation of duties for administering the
SAPT grant. However, this delegation did not ensure that costs
were kept on a program basis. Accordingly, we recommended
that the delegation be formalized with each of the applicable staff
formally acknowledging their awareness of the grant regulations.
This attestation will make it easier to hold appropriate staff
members accountable for noncompliance with grant regulations
and should help prevent future instances of noncompliance.

      - Regarding patient information services, the response
stated that while $20,000 of the $60,000 expenditure of funds for
the memorandum of understanding with the University of Guam
may be questionable, the remaining $40,000 was not questionable
because it had been budgeted for in the Department’s fiscal year
2000 SAPT grant application under the category "Information
Systems," which the grantor agency approved. In addition, the
response stated the work by the University was not a duplication
of effort, because the contractor performed other duties related to
the Department’s computer network. Our decision to question
the entire $60,000 and defer the final decision on allowability to
the U.S. Department of Health and Human Services was based on
the following three factors:


              16
‘ Contrary to what the Director stated in the May 7, 2002
   MHSIP grant close-out report, the Department did not
   have a "fully functioning" patient information system
   by October 1998. We found no correspondence from
   the Department to grantor officials clearly explaining
   this fact before or after the October 1998 deadline.
   Neither did the fiscal year 2000 SAPT grant application
   disclose that a "fully functioning" patient information
   system had not been implemented.

‘ During the audit, we were aware that the contractor, the
   University of Guam, had performed other work on a
   computer network. However, the cost of that additional
   work was not specified in the agreement and our review
   of available records clearly indicated that the University
   was developing a patient information system for the
   Department.

‘ Our review of records as well as interviews with
   Department officials indicated that the Department had
   lost control of the project, with the principle
   programmer providing sketchy progress reports of the
   work completed as well as what remained to be
   completed. In addition. Department officials were
   unsure of the status of the project or whether it would
   ever be completed.




        17
APPENDIX 1 - GRANT AWARDS, EXPENDITURES,
             AND COST EXCEPTIONS
                                                                                   Funds To
                               Grant        Grant       Questioned   Unsupported   Be Put To
 Description of Grant         Awards     Expenditures     Costs         Costs      Better Use

SAPT Block Grants:
   FY 1998                    $644,346      $581,240     $103,190       $430,236
   FY 1999                     749,439       506,380       34,990        424,251
   FY 2000                     756,532       721,838       60,000        649,654

        Totals              $2,150,317    $1,809,458     $198,190     $1,504,141

CMHS Block Grants:
  FY 1998                     $128,389      $123,638
  FY 1999                      134,969        74,991
  FY 2000                      167,301        75,728

        Totals                $430,659      $274,357

PATH Block Grants:
   FY 1998                     $50,000       $35,285
   FY 1999                      50,000        20,529
   FY 2000                      50,000             0

        Totals                $150,000       $55,814


MHSIP Stage I Grant:
      FY1994-1998             $341,064      $300,260                                $300,260




__________
All amounts represent Federal funds.




                                                   18
APPENDIX 2 - RESPONSE TO DRAFT REPORT




                   19
     Appendix 2
     Page 2 of 7




20
     Appendix 2
     Page 3 of 7




21
     Appendix 2
     Page 4 of 7




22
     Appendix 2
     Page 5 of 7




23
     Appendix 2
     Page 6 of 7




24
     Appendix 2
     Page 7 of 7




25
APPENDIX 3 - STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                        Action Required

          1              Resolved, not   Provide documentation to show that corrective
                         implemented.    actions have been completed.

          2              Implemented.    No further action is required.

        3 to 6           Resolved, not   Provide documentation to show that corrective
                         implemented.    actions have been completed.




                                         26
                            How to Report
                Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:

               Mail:         U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
               Phone:        24-Hour Toll Free           800-424-5081
                             Washington Metro Area       202-208-5300
                             Hearing Impaired            202-208-2420
                             Fax                         202-208-6023
                             Caribbean Region            703-487-8058
                             Northern Pacific Region     671-647-6060
               Internet:     www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
